<html>
<title> - S. 2480: LAW ENFORCEMENT OFFICERS SAFETY ACT</title>
<body><pre>[Senate Hearing 107-935]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-935

              S. 2480: LAW ENFORCEMENT OFFICERS SAFETY ACT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2002

                               __________

                          Serial No. J-107-95

                               __________

         Printed for the use of the Committee on the Judiciary



87-413              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa, 
  prepared statement.............................................    23
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    25
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    33
McConnell, Hon. Mitch, a U.S. Senator from the State of Kentucky, 
  prepared statement.............................................    35
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina, prepared statement...................................    42

                               WITNESSES

Baucus, Hon. Max, a U.S. Senator from the State of Montana.......     9
Cunningham, Hon. Randy ``Duke'', a Representative in Congress 
  from the State of California...................................     3
Gordon, Arthur, National Executive Board Member, Federal Law 
  Enforcement Officers Association, Lewisberry, Pennsylvania.....     8
Johnson, David, Deputy Chief of Police, Cedar Rapids Police 
  Department, Cedar Rapids, Iowa.................................    13
Westphal, Colonel Lonnie J., Chief, Colorado State Patrol, 
  Denver, Colorado...............................................    11
Young, Lieutenant Steve, National President, Fraternal Order of 
  Police, Marion, Ohio...........................................     5

                       SUBMISSIONS FOR THE RECORD

Baucus, Hon. Max, a U.S. Senator from the State of Montana, 
  prepared statement.............................................    16
Cunningham, Hon. Randy ``Duke'', a Representatives in Congress 
  from the State of California, prepared statement...............    17
Glidden, Osburn, Chief of Police, Williston Police Department, 
  Williston, Vermont, letter.....................................    19
Gordon, Arthur, National Executive Board Officer, and Richard J. 
  Gallo, National President, Federal Law Enforcement Officers 
  Association, Lewisberry, PA, prepared statement................    20
Johnson, David, Chief of Police, Cedar Rapids Police Department, 
  Cedar Rapids, Iowa, prepared statement.........................    27
Johnson, Wade M., Community Police Officer, Hinesburg Community 
  Police, Hinesburg, Vermont, letter.............................    30
Kentucky State Lodge, Fraternal Order of Police, Martin D. Scott, 
  Jr., State President, Louisville, Kentucky, letter.............    31
National Association of Police Organizations, Inc., Johnson, 
  William J., Executive Director, prepared statement.............    39
Westphal, Lonnie, J., Vice President, International Association 
  of Chiefs of Police, Cherokee, Iowa, prepared statement........    47
Young, Lt. Steve, National President, fraternal Order of Police, 
  prepared statement and attachment..............................    52

 
              S. 2480: LAW ENFORCEMENT OFFICERS SAFETY ACT

                              ----------                              


                         TUESDAY, JULY 23, 2002

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:08 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick 
Leahy, Chairman of the Committee, presiding.
    Present: Senator Leahy.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. I am pleased to hold this hearing today on 
the Law Enforcement Officers Safety Act of 2002. This is 
legislation to prevent current and retired Federal, State, and 
local law enforcement officers to carry their firearms to be 
prepared to assist in dangerous situations.
    There are 29 Senators, including Senator Baucus, who I know 
is coming from another matter and will be joining us on this, 
as well as members of the Senate Judiciary Committee, who go 
sort of across the spectrum. Senators Thurmond, McConnell, 
Edwards, Feinstein, Grassley, Sessions, Brownback, Cantwell, 
DeWine, and also Senator Harkin, the Chairman of the Senate 
Agriculture Committee, join with Senator Hatch and myself to 
cosponsor this bill.
    I introduced this measure as a companion to H.R. 218, 
sponsored by Representative Cunningham, who is here with us 
today. Congressman, I am told you have 267 cosponsors. I am not 
sure you could get 267 cosponsors, as fractious as things have 
been these days, to say the sun will rise in the East and set 
in the West, so it shows there is strong bipartisan support for 
this legislation. The Fraternal Order of Police strongly 
support it.
    There are currently 740,000 sworn law enforcement officers 
currently serving in the United States. Since the first 
recorded police death in 1792, there have been more than 15,000 
officers killed in the line of duty. A total of 1,647 died in 
the line of duty over the last decade. That is an average of 
165 deaths per year. Roughly 5 percent of the officers that die 
are killed taking law enforcement action while in an off-duty 
capacity. An average of more than 62,000 law enforcement 
officers are assaulted each year.
    Until last year, violent crime in this country declined in 
each of the preceding 8 years. That has come at a high price, 
though. It has meant far more police work, especially community 
policing.
    So this Act is designed to protect officers and their 
families from vindictive criminals and to allow thousands of 
equipped, trained, and certified law enforcement officers, 
whether on or off duty or retired, to carry concealed firearms 
in most situations, thus enabling them to respond immediately 
to a crime.
    I might point out for those who think that a law 
enforcement officer either off-duty or retired ever faces a 
threat. We all know that happens all the time. It has been 28 
years since I was in law enforcement and I still run into 
people who remember my kind words as they went off to the 
slammer for 15 or 20 or 25 years. I thought they would never 
live long enough to see them get out, but they are out. So I 
know the feeling.
    We have a number of letters of support from Vermont law 
enforcement officials, including Chief Osburn Glidden of 
Williston and Officer Wade Johnson of Hinesburg.
    I received calls of support for this measure from Chief 
Trevor Whipple of Barre, and I saw him on Saturday in Barre, 
and Captain Robert Hawke, the President of the Vermont Police 
Association. I have a statement endorsing this legislation from 
the National Organization of Police Organizations and the 
International Brotherhood of Police Officers.
    This is not one of those things that costs any money. We 
are just saying off-duty and retired officers should be 
permitted to carry their firearms across State and other 
jurisdictional lines. We are talking about qualified law 
enforcement officers and qualified retired law enforcement 
officers. Nobody is asking to just allow it. You have to hit 
the basic qualifications. And it preserves any State law that 
permits citizens from restricting a concealed firearm on 
private property and preserves any State law that restricts the 
possession of a firearm on State or local government policy.
    But to qualify, a law enforcement officer has to be 
authorized to use a firearm by the law enforcement agency where 
he or she works, be in good standing, and meet standards 
established by the agency to regularly qualify to use a 
firearm. The officer has to have been retired in good standing, 
been employed at least 5 years as a law enforcement officer 
unless forced to retire due to a service-related injury, have a 
non-forfeitable right to benefits under their retirement plan, 
and annually complete a State-approved firearms training 
course. I mean, these are tough requirements. It is not as 
though we are just going to arm half the world. You have to fit 
these requirements.
    I know that either current police officers or former police 
officers are never really off-duty. I look forward to hearing 
the testimony. I am delighted that Congressman Cunningham is 
here and I know that Steve Young, a good friend, the President 
of the Fraternal Order of Police, is here, who has spent a lot 
of time on this. We have had private discussions and others.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Congressman Cunningham, I will give away no 
secrets to mention the comment that the President made to the 
two of us that we either had a pretty good piece of legislation 
or one of us had not read it.
    [Laughter.]
    Chairman Leahy. But I think we have put together a good 
coalition here and I am delighted and honored to have you here 
at the Committee. Please go ahead, sir.

 STATEMENT OF HON. RANDY ``DUKE'' CUNNINGHAM, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cunningham. Thank you, Mr. Chairman. I would tell you 
that besides the cosponsors of the bill, when we did have an 
opportunity to vote on this bill in the House, it passed with 
372 votes. It was tied to the juvenile justice bill, which 
unfortunately was at the end of the year and then the Senate 
was not able to take up. The gentlelady from New York, Mrs. 
McCarthy, who lost her husband to a handgun, is supportive of 
this bill. Mr. Schumer, who used to be in our body and is now 
joining you, as I understand it, is speaking in favor of this. 
So this has wide, not only bipartisan support, but support from 
different sides of particular issues.
    I cannot tell you how happy especially, Mr. Chairman, this 
makes me. Since 1992, I have been working this issue, waiting 
for you, not you specifically, but for this day to come where 
we could have a hearing on this, and I know the law enforcement 
agencies thank you, as well.
    Why have I fought so long? It is three simple reasons. It 
will make our community safer. It puts cops on the street, more 
cops on the street, at no cost to the taxpayers. It is a good 
piece of legislation. Many times, our law enforcement agents do 
not deal with the best part of our civilization, and when they 
put these guys away, sometimes these bad guys come back and 
want retribution. This also protects the law enforcement agents 
and their families, and I think you will see in the testimony 
today there are thousands of cases where law enforcement agents 
have been threatened, have been killed and maligned because 
they were not allowed to carry a weapon.
    This is so important. I think it was exemplified when we 
had thousands of law enforcement agents here this summer. You 
and I were invited among all the other Members of Congress to 
stand on the podium with agents on Law Enforcement Memorial Day 
with the President of the United States. That is how much they 
thought of this bill and you and what you are doing here today, 
and I again want to thank you.
    The passage of this legislation will make our communities 
safer by putting tens of thousands of law enforcement agents on 
the street, armed and capable of disrupting criminal efforts at 
places and times where there are currently not any.
    Additionally, this legislation will make our law 
enforcement officers themselves safer. I have heard testimony 
that supports this from law enforcement officers across the 
country, as I just previously mentioned.
    Finally, enactment of this measure will cost nothing to the 
taxpayer. It is a rarity these days to be able to have a 
positive, measurable effect on our communities without spending 
our tax dollars. When we do find a way, I believe it is 
incumbent on us to do so. Any community would relish the 
thought of being able to put more officers on the street. In 
fact, that is often the main plank of any crime reduction 
effort. Here is a way to do just that while preserving precious 
resources for other legislation.
    Again, I would like to offer you a challenge that we in the 
House hope we will pass this before you. That might be a bad 
bet on my side, but I think if you are able to pass this, it 
will put pressure on the Chairman in the House Judiciary to do 
so and I know the President will sign it right away.
    It is a good piece of legislation, Mr. Chairman, and God 
bless you for having this hearing today.
    Chairman Leahy. I thank you for that. If you send it over 
here, I would ask the leader to hold it at the desk. I do not 
care whether it comes over with a House number or a Senate 
number, I just want to get it passed. So either way, we will 
try to move it very quickly. I will very quickly be putting it 
on the agenda in the Senate Judiciary Committee and we will 
move it on.
    I also know that you have got about 14 other places you are 
supposed to be, so----
    Mr. Cunningham. I have got to over and testify on the 
supplemental that we are having on the floor right now, 
Senator, but thank you for this opportunity, and on behalf of 
law enforcement agencies, thank you.
    Chairman Leahy. Thank you very, very much.
    [The prepared statement of Mr. Cunningham appears as a 
submission for the record.]
    Chairman Leahy. The next panel will be Lieutenant Steve 
Young, the National President of the Fraternal Order of Police, 
and Congressman Cunningham talked about the honor we had to be 
on the podium with Steve Young and the President. It was an 
honor in both cases. We also have Arthur Gordon, National 
Executive Board Member of the Federal Law Enforcement Officers 
Association from Woodbine, Maryland; Deputy Chief of Police 
David Johnson, Cedar Rapids Police Department, Cedar Rapids, 
Iowa; and Colonel Lonnie Westphal, Chief of the Colorado State 
Patrol in Denver, Colorado.
    Chief Westphal, I was recently out in Denver and received 
some logistical help from some of your folks and they were 
absolutely superb. I just wanted to mention that.
    Senator Grassley had intended to be here, but he is stuck 
on the floor, as sometimes happens. Especially because you are 
here, Chief John, he wanted to be here, but the nature of the 
bill that is on the floor, he is the ranking member and 
required to be there, and I am going to put a statement from 
him in the record in which, you will not be surprised to know, 
he praises you.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Leahy. I will also include in the record a 
statement from Senator Thurmond.
    [The prepared statement of Senator Thurmond appears as a 
submission for the record.]
    Chairman Leahy. My good friend, Lieutenant Steve Young of 
Marion, Ohio, is here, and Steve, why do we not start with you.

   STATEMENT OF LIEUTENANT STEVE YOUNG, NATIONAL PRESIDENT, 
            FRATERNAL ORDER OF POLICE, MARION, OHIO

    Lieutenant Young. Thank you, Mr. Chairman, and good 
afternoon. As you said, my name is Steve Young. I am the 
National President of the Fraternal Order of Police, the 
largest law enforcement labor organization in the United 
States, with more than 300,000 members.
    I want to begin by extending the sincere gratitude of our 
nation's rank-and-file officers to you, Mr. Chairman, for 
holding this hearing. The FOP is sincerely grateful to you and 
to Ranking Member Hatch for authoring S. 2480, the Law 
Enforcement Officers Safety Act, which is the subject of 
today's hearing.
    I also want to recognize and thank Representative Randy 
``Duke'' Cunningham for all of his efforts and hard work on 
this issue in the House. We have been working side by side with 
Mr. Cunningham for many years now and his commitment to the 
bill has never wavered.
    This bill is not about firearms, it is about officer 
safety, a fact recognized by you, Mr. Chairman, and the 11 
members of this Committee who cosponsor it. I further believe 
that on September 11, 2001, it became a critical public safety 
and homeland security issue.
    Immediately after the attacks, the ranks of volunteers in 
New York City, Pennsylvania, Northern Virginia, and Washington, 
D.C., were swelled by off-duty and retired law enforcement 
officers and other emergency services personnel from every 
region of the country who had come to volunteer their services. 
Many of the law enforcement officers who did so may have been 
in legal jeopardy.
    For instance, the State of New York and New York City 
restrict the ability of off-duty police officers from other 
jurisdictions to carry firearms. Across the river in New 
Jersey, officers not employed by that State were probably not 
exempt from New Jersey's statute against unlawful possession of 
a firearm. In Pennsylvania, there is no exemption for out-of-
State police officers.
    No other emergency response professional who chose to 
volunteer their professional expertise in response to the 
attacks on the United States faced any legal jeopardy for 
crossing a jurisdictional boundary, but law enforcement 
officers did.
    Among the many tools of a professional law enforcement 
officer are the badge and the gun. The badge symbolizes the 
officer's authority, and in worst case scenarios, the gun 
enforces that authority. These tools are given to the officer 
in trust by the public to enforce the peace and fight crime. In 
asking Congress to pass this bill, we seek a measured extension 
of that trust.
    In certain situations, an officer's knowledge and training 
would be rendered virtually useless without a firearm, as would 
his ability to provide for his own self-defense or that of his 
family. A police officer may not remember the name and face of 
every criminal he or she has arrested, but a convicted felon 
would certainly remember the officer who put them behind prison 
bars. These violent felons can and do target police officers 
and they do not care if the officer is in his or her own 
jurisdiction, nor do they care if the officer is in uniform or 
not, on duty or off, active or retired.
    We have compiled the names of 54 officers, all of whom were 
off-duty when they were killed. Yet despite not being on the 
clock, the circumstances of their deaths qualified them as 
having died in the line of duty. To the best of our knowledge, 
these officers were unarmed when they answered the call. Some 
were killed when they placed themselves in harm's way to help a 
victim or stop a crime in progress. Others were recognized or 
discovered to be police officers or identified themselves as 
such, prompting their assailants to kill them.
    With your permission, Mr. Chairman, I would like this 
document to be entered into the record.
    Chairman Leahy. It will be.
    Lieutenant Young. The fate of these 54 officers should 
remind all of us that law enforcement is a dangerous 
profession. There is no legislation, Act of Congress, or 
government regulation which will change this sobering fact. 
However, the adoption of S. 2480 will, at the very least, give 
officers who do choose to carry their firearms a chance to 
defend themselves and their families whenever and wherever the 
criminal may strike.
    I also want to share with you a happier example about an 
off-duty officer who was legally carrying a firearm off-duty. 
His courage and heroism under fire earned him the recognition 
of Parade Magazine and the IACP, who named him ``Police Officer 
of the Year'' in 2000.
    Police Officer Dennis Devitte, a 20-year veteran of the Las 
Vegas Police Department, was off-duty at a sports bar late one 
evening when the establishment was attacked by three armed 
assailants, two of which opened fire on the crowd. Devitte did 
not hesitate. He pulled his tiny .25-caliber pistol, and 
knowing he would have to get very close to make sure he hit his 
target, charged a man firing a .40-caliber semi-automatic. 
Officer Devitte got within one foot, fired, and killed the 
gunman, but not before he was shot eight times. The remaining 
two gunmen fled the robbery and the robbery was thwarted.
    All six civilians wounded by the gunman recovered. One 
witness described Officer Devitte's action as ``the most 
courageous thing I've ever seen.'' Although seriously injured, 
Officer Devitte was back on the job 6 months later. So it is 
ironic to me that the IACP would oppose this legislation when 
their own choice for ``Police Officer of the Year'' for 2000 
earned this recognition for his heroic actions while he was 
off-duty and armed. Perhaps they will be able to explain this 
contradiction today.
    I also want to refute an argument raised by the bill's 
opponents who object to this measure because it preempts State 
law. In the view of the FOP, the Congress has the power under 
the Full Faith and Credit Clause of the Constitution to extend 
full faith and credit to police officers who have met the 
criteria to carry firearms set by one State and make those 
credentials applicable in all States. The bill maintains the 
States' power to set their own requirements for their officers 
in training and qualifying in the use of weapons.
    We believe that S. 2480 carefully defines who in law 
enforcement will not be able to carry a weapon under this bill. 
Active officers must admit to qualification standards 
established by the agency, and retired officers must requalify 
with their firearm at their own expense every 12 months and 
meet the same standards as active officers in the State in 
which they reside. This is a narrow universe of persons who are 
qualified and worthy of the measured extension of the trust 
that this legislation would provide.
    Further, Congress has previously acted to force States to 
recognize concealed carry permits by other States on the basis 
of employment. In June 1993, Congress passed P.L. 103-55, the 
Armored Car Industry Reciprocity Act. This legislation mandated 
reciprocity for weapons' licenses issued to armored car company 
crew members. Similarly, 2 weeks ago, the House voted 
overwhelmingly to create an exemption from State and local 
prohibitions on the carrying of firearm for airline pilots who 
volunteer to become Federal Flight Deck Officers. Mr. Chairman, 
if Congress can mandate that private security guards and 
airline pilots can carry in all States, I do not think it 
should balk at extending the same authority to fully sworn, 
fully trained law enforcement officers employed by government 
agencies.
    The aim of the bill, allowing qualified active and retired 
law enforcement officers to carry their firearms outside their 
jurisdiction, is not controversial. This legislation has 
widespread bipartisan support. The companion bill to S. 2480, 
H.R. 218, the Community Protection Act, currently has 261 
sponsors.
    Just 2 years ago, the House passed an amendment identical 
to this bill on the floor by an overwhelming vote of 372 to 53. 
Though the underlying measure was defeated, it is clear that 
the House recognized the merits of this legislation and it is 
my hope that this Committee will, as well.
    Mr. Chairman and members of the Committee, it is an 
increasingly dangerous world that the men and women in blue are 
asked to patrol. We need the ability to defend ourselves 
against the very criminals that we pursue as part of our sworn 
duty because the dangers inherent to our profession do not end 
with the shift. Mr. Chairman and other Members of Congress and 
the administration, you saw firsthand the support of the rank-
and-file officers for this measure on May 15 right here on the 
West Front of the Capitol.
    Mr. Chairman, thank you for the opportunity to testify 
before the Committee today on this issue and I would certainly 
be pleased to answer any questions you may have. Thank you.
    Chairman Leahy. Thank you, Lieutenant. I would note it was 
not just the reaction of the officers on the West Front of the 
Capitol on that, but it is your own dedication and your own 
efforts on this, conversations you and I have had, my staff and 
you have had, and others, and the fact that you are pushing 
this as a basis to make our community safer and I appreciate 
that very much.
    Lieutenant Young. Thank you, sir.
    [The prepared statement of Lt. Young appears as a 
submission for the record.]
    Chairman Leahy. Mr. Gordon wants to testify on behalf of 
the Federal Law Enforcement Officers Association and is an 
officer in that organization's National Executive Board. He has 
had 27 years as an ATF agent. He has been a firearms instructor 
for the ATF for 17 years, which means he can shoot probably a 
lot better than I can. He served in ATF's headquarters in 
firearms training for two-and-a-half years. He has helped to 
write many of the current firearms training courses currently 
used by the agents nationwide, so I appreciate both your 
service and your expertise. Welcome, Mr. Gordon. The floor is 
yours.

 STATEMENT OF ARTHUR GORDON, NATIONAL EXECUTIVE BOARD MEMBER, 
    FEDERAL LAW ENFORCEMENT OFFICERS ASSOCIATION, WOODBINE, 
                            MARYLAND

    Mr. Gordon. Thank you. On behalf of the Federal Law 
Enforcement Officers Association, we thank the Chairman, 
ranking member, and members of the Committee for inviting us. 
We are pleased to be here today to express our support for S. 
2480, the Law Enforcement Officers Safety Act of 2002, a common 
sense, bipartisan legislative proposal that will enable retired 
Federal agents to defend themselves and their families as well 
as to continue to protect the American citizens.
    My name is Art Gordon. I am a member of the National 
Executive Board of the Federal Law Enforcement Officers 
Association, a professional association made up of volunteers 
exclusively representing criminal investigators, the special 
agents from the Department of Justice, the Department of 
Treasury, and many other Federal agencies. There are 
approximately 32,000 Federal agents in America. Although I am 
an agent with the Bureau of Alcohol, Tobacco, and Firearms, 
Baltimore Field Division, I am not here today representing the 
agency, only FLEOA.
    Personally, I have 27 years of service as an ATF agent and 
have been a firearms instructor for ATF for 17 years. In 
addition, I have served in ATF's headquarters firearms training 
program for two-and-a-half years, where I assisted in writing 
many of the current firearms training courses currently used by 
ATF agents across the country. I have been eligible to retire 
for the past 2 years.
    FLEOA supports the Law Enforcement Officers Safety Act of 
2002, S. 2480, for several reasons. One of these reasons is for 
exactly what the title of the bill states, law enforcement 
officer safety. Over the years, every Federal agent from every 
single agency has arrested people who only remember the face of 
the agent who arrested him or her. Being arrested means someone 
getting into your face. We get into people's faces. We also 
have to process the person through the criminal justice system 
and sometimes testify against them in court.
    Over the years, an agent can do this hundreds of times and 
the face of the people arrested can blur. However, for the 
people only getting arrested once, twice, or even a half-dozen 
times, those days tend to stand out in their memory. The 
ultimate nightmare for an agent is to be walking with his or 
her family and be approached by someone who states, ``Hey, 
agent, remember me?'' These are the words that would make any 
cop's heart skip a beat until we learn if the person is friend 
or foe. If the person has nefarious intentions and the agent is 
retired, well, let us say that is a nightmare we do not want to 
see the conclusion of.
    The Law Enforcement Officers Safety Act of 2002 will give 
the retired agent not only the chance to totally defend him or 
herself, but will also permit them to protect any citizen if 
they stumble across a crime occurring. Back in 1999, Senator 
Grassley authored the Federal Law Enforcement Good Samaritan 
Act. The Committee, under the leadership of Senators Hatch and 
Leahy, approved the legislative proposal and it was signed into 
law. This law allowed Federal agents to take reasonable action 
for a crime that occurs in their presence while we are off-
duty.
    S. 2480 is an extension of this common sense law, for if I 
retired yesterday, is there any difference in me today? A 
Federal agent usually qualifies with their everyday firearm at 
least four times a year and qualifies with various other 
weapons throughout each year. Also included in the training 
exercise are shoot/don't shoot scenarios and the legal aspects 
of using deadly force.
    The current requirement for Federal agents hired before 
1984 to retire is 20 years of service and to be the age of 50. 
For agents hired after 1984, they can retire with 25 years of 
service at any age or 20 years of service at the age of 50. I 
am sure all present here today will agree that life does not 
end at 50. There are many more productive years left. In fact, 
many Federal agents continue in their profession either working 
as private investigators, or with State or local criminal 
justice agencies, or become teachers utilizing their expertise 
in the field to instruct the next generation.
    Once you count the initial training at Quantico, Virginia, 
or Glynco, Georgia, add in four times a year firearms 
qualification, plus the multitude of other training course, 
this results in an investment that the American citizen 
deserves to continue to get something back from.
    At the start of every Congressional session, FLEOA surveys 
its members, querying them on what issues are important to 
them. For each of the past few Congressional sessions, this 
issue has been in the top three. FLEOA has approximately 60 
chapters across America, and over the years the President of 
FLEOA has attended hundreds of chapter meetings. This issue has 
always been one that members have brought up because they truly 
have been concerned about this.
    For all these reasons, FLEOA believes S. 2480 should be 
approved in this Committee and on the full floor of the Senate 
and signed into law.
    On behalf of Mike Miskinis, Chapter President of FLEOA's 
Utah Chapter, retired Secret Service agent; Frank Puleo, 
Chapter President of FLEOA's Vermont Chapter, currently an 
agent with HHS OIG but also a future retiree; and for all the 
members of the Federal Law Enforcement Officers Association, I 
thank you for holding this hearing today and I look forward to 
answering any questions of the Committee.
    Chairman Leahy. Thank you for your remarks.
    [The prepared statement of Mr. Gordon appears as a 
submission for the record.]
    Chairman Leahy. I will now turn to Senator Baucus.

STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. It was 
not too many years ago I was sitting next to you on this 
Committee.
    Chairman Leahy. We still miss you.
    Senator Baucus. I miss this Committee. This Committee was 
probably--I enjoyed as much and had more fun in just trying to 
address just basic constitutional issues that really affect and 
go to the heart of our country, and I thank you for the great 
job you are doing in conducting and chairing this Committee.
    Mr. Chairman, I also thank you in the spirit of being a 
great leader of this Committee for allowing me to testify on 
the bill that you have introduced, which I think is very needed 
and very important, particularly at this time.
    This bill, I think, will pay enormous dividends for the 
American people. It will allow qualified active duty and 
retired law enforcement officers to carry their weapons 
regardless of State and local restrictions on carrying 
concealed weapons, to allow these officers to carry their 
weapons across State and other jurisdictional lines.
    The legislation also addresses a critical officer safety 
and public safety need. Law enforcement officers are trained. 
They are trained professionals. They are dedicated, dedicated 
public servants, sworn to uphold the law and protect the 
citizens of our country. They are always on duty, even when 
they are not in uniform or patrolling a beat. After September 
11, the role of law enforcement officers in our communities is 
even more important as they constitute our front-line defense 
against terrorism here at home.
    It just makes sense to be sure that law enforcement 
officers have the means to protect themselves and the public at 
all times, because they could be called upon to protect 
themselves or the public at any time. Particularly, it makes 
sense in rural States like mine of Montana, where law 
enforcement officers are stretched thin, there is so much 
territory to cover.
    Your bill also will enhance public safety by allowing the 
nation to tap into the wealth of training and knowledge that is 
our law enforcement community, without costing our Federal 
taxpayers a dime. Law enforcement officers have training. They 
have expertise in detecting and preventing the crime that 
ordinary citizens just do not have. The bill also makes sure 
that officers can maximize that training in the event of an 
emergency, regardless of jurisdiction and regardless of whether 
an officer was officially on duty.
    And, it does a good job of balancing the rights of States 
and private citizens by preserving State laws that permit 
private citizens to prohibit concealed weapons on their own 
property, and State laws that ban firearms on State or local 
property.
    Mr. Chairman, I commend you for your bill. I think it is 
very timely, it is very important, and I hope that your 
Committee, Mr. Chairman, can mark this up quickly and get it 
out quickly on the floor because it is part of the major effort 
that we now need to undertake just to better protect ourselves 
in America, and I thank you again very much for what you are 
doing.
    Chairman Leahy. I thank you very much. I thank you for your 
strong support of it and I am hoping we can get it out of the 
Committee at our next markup and quickly on the consent 
calendar. Thank you.
    Senator Baucus. Good. Thank you again, Mr. Chairman.
    Chairman Leahy. I know you are supposed to be, as I said 
earlier, at another meeting. I appreciate you taking the time 
to come by.
    [The prepared statement of Senator Baucus appears as a 
submission for the record.]
    Chairman Leahy. Colonel Westphal, you are here representing 
the IACP and you are currently Vice President, am I correct in 
that?
    Col. Westphal. That is correct, Senator.
    Chairman Leahy. You were appointed to the position of Chief 
of the Colorado State Patrol in October 1995. You had served 
with them for 21 years before that, since 1974, the year that I 
was ending my law enforcement career. Please go ahead, Colonel.

STATEMENT OF COLONEL LONNIE J. WESTPHAL, CHIEF, COLORADO STATE 
                    PATROL, DENVER, COLORADO

    Col. Westphal. Good afternoon, Senator Leahy. I am pleased 
to be here this afternoon to present the views of the 
International Association of Chiefs of Police on S. 2480, the 
Law Enforcement Officers Safety Act of 2002.
    As you know, the IACP is the world's oldest and largest 
association of law enforcement executives, with more than 
19,000 members in 100 countries. Before I address our concerns 
with this legislation, I would like to express my gratitude and 
the gratitude of the IACP to the Committee for your continuing 
support of the nation's law enforcement agencies and law 
enforcement officers.
    I sort of feel like, Senator, the only red tree in a forest 
of pine trees today----
    [Laughter.]
    Col. Westphal.--but as you know, the IACP has some serious 
concerns with the Law Enforcement Officers Safety Act. Our 
opposition is based primarily on the fundamental belief that 
States and localities should determine who is eligible to carry 
firearms in their community.
    Over the years, the IACP has consistently opposed any 
Federal legislative proposals that would either preempt and/or 
mandate the liberalization of an individual State's laws that 
would allow citizens of other States to carry concealed weapons 
in that State without meeting its requirements. The IACP 
believes it is essential that State governments maintain the 
ability to legislate concealed carry laws that best fit the 
needs of their community. This applies to the laws covering 
private citizens as well as active and former law enforcement 
personnel. The IACP also believes that each State should retain 
the power to determine whether they want police officers that 
are trained and supervised by agencies outside of their State 
to carry weapons in their jurisdictions.
    In addition, authority for police officers to carry 
firearms when off duty, use of force policies, and firearms 
training standards vary significantly from State to State. Why 
should a police chief who has employed the most rigorous 
training program with strict standards of accountability and 
stringent policies be forced to permit officers who may not 
meet those standards to carry a concealed weapon in his or her 
jurisdiction?
    However, in addition to these fundamental questions over 
the preemption of State and local firearms laws, the IACP is 
also concerned with the impact this legislation may have on the 
safety of our officers and our community. There can be no doubt 
that police executives are deeply concerned for the safety of 
our officers. We understand the proponents of S. 2480 contend 
that police officers need to protect themselves and their 
families while traveling and that undercover officers may be 
targets if recognized on vacation and travel. These are 
certainly considerations, but they must be balanced against the 
potential dangers involved.
    In fact, one of the reasons that this legislation was 
especially troubling to our nation's law enforcement executives 
is because they could, in fact, threaten the safety of officers 
by creating tragic situations where officers from other 
jurisdictions are wounded or killed by local officers.
    Police departments throughout the nation train their 
officers to respond as a team to dangerous situations. This 
teamwork requires months of training to develop and provides 
the officers with an understanding of how their coworkers will 
respond when faced with different situations. Injecting an 
armed, unknown officer who has received different training and 
is operating under different assumptions can turn an already 
dangerous situation deadly.
    In addition, the IACP believes that this legislation would 
do little to improve the safety of communities. It is important 
to remember that a police officer's authority to enforce the 
law is limited to the jurisdiction in which they serve. An 
officer, upon leaving his jurisdiction, has no arrest powers or 
other authority to enforce the law. That is the responsibility 
of the local law enforcement agencies.
    In addition, the IACP is concerned that the legislation 
specifies that only an officer who is not subject to a 
disciplinary action is eligible. This provision raises several 
concerns for law enforcement executives. For example, what 
types of disciplinary actions does this cover? Does this 
provision apply only to current investigations and actions? How 
would officers ascertain that an out-of-State law enforcement 
officer is subject to a disciplinary action and, therefore, 
ineligible to carry a firearm?
    Additionally, while the legislation does contain some 
requirements to ensure that retirees qualify to have a 
concealed weapon, they are insufficient and would be difficult 
to implement. The legislation fails to take into account those 
officers who have retired under the threat of disciplinary 
action or dismissal for emotional problems that did not rise to 
the level of mental instability. Officers who retire or quit 
just prior to a disciplinary or competency hearing may still be 
eligible for benefits and appear to have left the agency in 
good standing. Even a police officer who retires with 
exceptional skills today may be stricken with an illness or 
other problem that makes him or her unfit to carry a concealed 
weapon, but they will not be overseen by a police management 
structure that identifies such problems in current officers.
    Finally, the IACP is also concerned over the liability of 
law enforcement agencies for the actions of an off-duty officer 
who uses or misuses their weapon while out of State. If an off-
duty officer uses or misuses their weapon while in another 
State, it is likely that their department will be forced to 
defend itself against liability charges in that State. The 
resources that mounting this defense would require could be 
better spent serving the communities we represent.
    In conclusion, I would like to state the IACP understands 
that at first glace, this legislation may appear to be a simple 
solution to a complex problem. However, a careful review of 
these provisions reveals that it has the potential to 
significantly and negatively impact the safety of communities 
and our officers. It is my hope that this Committee will take 
the concerns of the IACP into consideration before acting upon 
this legislation.
    This concludes my statement, Senator and Mr. Chairman, I 
will respond to any questions.
    Chairman Leahy. Thank you very much.
    [The prepared statement of Col. Westphal appears as a 
submission for the record.]
    Chairman Leahy. Next, we will hear from Deputy Chief of 
Police David Johnson, from the Cedar Rapids Police Department 
in Cedar Rapids, Iowa.

   STATEMENT OF DAVID JOHNSON, DEPUTY CHIEF OF POLICE, CEDAR 
          RAPIDS POLICE DEPARTMENT, CEDAR RAPIDS, IOWA

    Mr. Johnson. Mr. Chairman, members of the Senate Committee 
on the Judiciary, my name is David Johnson and I am currently 
the Deputy Chief of Police in Cedar Rapids, Iowa. I have been a 
police officer for over 30 years and my career as a cop started 
right here in Washington, D.C.
    In 1971, I logged my first patrol as a police officer in 
the Washington Metropolitan Police Department in the Seventh 
District. Since 1974, I have been with the Cedar Rapids Police 
Department. I am a past President of the Iowa Association of 
Chiefs of Police and Peace Officers and I am also a life member 
of the Law Enforcement Alliance of America.
    The Law Enforcement Officers Safety Act of 2002 is an idea 
first introduced to Congress 10 years ago. In 1992, H.R. 4897, 
the first version of this legislation, was born with a 
bipartisan introduction by Congressman Cunningham of California 
and Congressman Ralph Hall of Texas.
    In the decades since then, the support for this legislation 
has grown dramatically. Today, it is still a bipartisan effort 
with strong support from both sides of the aisle in the House, 
the Senate, and in this very Committee, where a bipartisan 
majority of ten Senators have signed on as cosponsors.
    Mr. Chairman and members of the Committee, I would like to 
share with you a few examples of just how vital this 
legislation is to the safety of police officers and our 
community. Police officers like doctors, fire fighters, and 
other emergency personnel are never really off-duty. In some 
States, it is the law. These public servants perform countless 
acts of courage and face many moments of danger well after they 
have finished their shift, and some even after they have ended 
their tour of duty.
    Consider the story of Officer Wendell Smith, Jr., a veteran 
of the Washington Metropolitan Police Department. Officer Smith 
worked here in the District of Columbia, but he lived in the 
State of Maryland. When returning home after his shift in 
February 1997, Officer Smith was robbed at gunpoint. Just hours 
before, this officer with his gun on his side might have been 
able to have a fighting chance. But without legislation such as 
S. 2480 in place, Officer Smith was barred from carrying his 
firearm and had to secure it out of reach. When the robbers 
discovered his badge and realized that he as a police officer, 
they executed him in cold blood. Officer Smith was killed 
because he was forced to be unarmed. On the day of this 
officer's murder, the legislation that could have saved his 
life had been sitting idle in Congress for 5 years. Now, 10 
years after its introduction, it is still not law.
    In March of 2001, a student opened fire at a high school in 
San Diego, California. However, the shooter was not the only 
person with a gun. Off-duty San Diego police officer Robert 
Clark was also on campus, running an errand. When he heard the 
shots, he immediately took action, drew his concealed firearm, 
and ran to the scene of the crime. He confronted the shooter in 
the school bathroom and held him at gunpoint, preventing the 
shooter from entering the hallway and continuing the massacre.
    When on-duty officers arrived for back-up, Officer Clark 
worked with the two deputies--deputies from a different law 
enforcement agency than his, I might add--to disarm the shooter 
and take him into custody. Once the scene was secured, Officer 
Clark then administered first aid to the two shooting victims 
found in the bathroom. For his bravery, Officer Robert Clark 
was given his department's highest honor.
    There is not enough time left in this hearing or even in 
this session of Congress to share with you every heroic story 
of off-duty or retired officers intervening to save lives. You 
have heard some from me, and certainly you have heard stories 
from your constituents about how this legislation can and will 
save lives.
    Since September 11, our entire nation has been forced to 
rethink our vigilance for the safety of our borders, our 
communities, our families, and ourselves. We do not know if, 
when, or how terror will strike again. What we do know is that 
in any given time of day, roughly 70 percent of our nation's 
police officers are off duty. S. 2480 can empower those off-
duty officers, plus the countless trained and qualified law 
enforcement officers, with the tools they need to make a 
difference.
    This is homeland security that does not require us to 
trample on civil liberties, homeland security that can be done 
without playing musical chairs with Federal public safety 
personnel, and homeland security that will not bust the budget. 
That is one of the reasons why this bill is so widely supported 
by Democrats, Republicans, and Independents.
    Mr. Chairman and members of the Committee, I thank you for 
giving this legislation a hearing and allowing me to testify 
today. On behalf of myself, fellow members of the Law 
Enforcement Alliance of America, and police officers 
everywhere, I would ask your help in seeing to it that S. 2480 
becomes law this year. Thank you.
    Chairman Leahy. Thank you very much.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Chairman Leahy. I need to remember to turn my microphone 
on. We just had these new microphones installed. You turn them 
on or off. Why do we turn them on or off? We sometimes found, 
with Senator's very busy times, sometimes they only get 
together actually during these Committee meetings and sometimes 
there are those who have heard a new joke, and sometimes they 
are whispering, and sometimes they get calls from their 
constituents saying, what are you doing? This would never 
happen to police officers.
    [Laughter.]
    Chairman Leahy. You would never have something over an open 
microphone, like in a car or something, that you wish had not 
been heard. So now we have to turn them on and off.
    I have a statement by Senator Hatch which will go in the 
record.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    Chairman Leahy. What I will do, because other Senators are 
unable to come, we will take this testimony and submit 
questions for the record.
    I would note also that tomorrow marks the fourth 
anniversary of the shooting of two Capitol Police Officers, 
Officer Jacob Chestnut and Detective John Gibson, who were 
slain in the line of duty while protecting the Capitol in 1998. 
I knew both those officers well. At 3 tomorrow afternoon, there 
is a short memorial service at what we now call the Memorial 
Door over at the Capitol. I intend to be there and others will.
    What we have been doing is usually both the House and the 
Senate pause for a moment of reflection, if we are having a 
debate, for these two officers. It kind of reminds us right at 
home, even in a place like the United States Capitol, which is 
usually considered the most safe place anywhere, that dangers 
lurk even here. In this case, it was the officers who died 
defending the Members of Congress and those who come here. It 
would be hard to know two better or nicer officers than those 
two.
    I recall the day very well. I was on the plane back to 
Vermont and got off the plane and was met by a staff member in 
my office in Vermont with a very shocked look on his face who 
gave me the news. One of the officers, I had seen just that 
morning. I said, this is not possible. Unfortunately, it was 
possible.
    So we know these things happen, and I appreciate the 
service of all of you, Colonel, Deputy Chief, Mr. Gordon, 
Lieutenant Young. Those of us in civilian life do not often 
take time to say thank you. For those of us who had the 
opportunity to serve in law enforcement, as I did, we know the 
thanks are due, but let me say on behalf of the whole 
Committee, again, is the one thing that every one of us would 
join on this Committee, Republican and Democrat, is to say 
thank you.
    We will stand in recess.
    [Whereupon, at 2:55 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

                       SUBMISSIONS FOR THE RECORD
[GRAPHIC] [TIFF OMITTED] T7413.003

[GRAPHIC] [TIFF OMITTED] T7413.004

[GRAPHIC] [TIFF OMITTED] T7413.005

[GRAPHIC] [TIFF OMITTED] T7413.006

[GRAPHIC] [TIFF OMITTED] T7413.007

[GRAPHIC] [TIFF OMITTED] T7413.008

[GRAPHIC] [TIFF OMITTED] T7413.009

[GRAPHIC] [TIFF OMITTED] T7413.010

[GRAPHIC] [TIFF OMITTED] T7413.011

[GRAPHIC] [TIFF OMITTED] T7413.012

[GRAPHIC] [TIFF OMITTED] T7413.013

[GRAPHIC] [TIFF OMITTED] T7413.014

[GRAPHIC] [TIFF OMITTED] T7413.015

[GRAPHIC] [TIFF OMITTED] T7413.016

[GRAPHIC] [TIFF OMITTED] T7413.017

[GRAPHIC] [TIFF OMITTED] T7413.024

[GRAPHIC] [TIFF OMITTED] T7413.025

[GRAPHIC] [TIFF OMITTED] T7413.018

[GRAPHIC] [TIFF OMITTED] T7413.019

[GRAPHIC] [TIFF OMITTED] T7413.020

[GRAPHIC] [TIFF OMITTED] T7413.021

[GRAPHIC] [TIFF OMITTED] T7413.022

[GRAPHIC] [TIFF OMITTED] T7413.023

[GRAPHIC] [TIFF OMITTED] T7413.026

[GRAPHIC] [TIFF OMITTED] T7413.027

[GRAPHIC] [TIFF OMITTED] T7413.028

[GRAPHIC] [TIFF OMITTED] T7413.029

[GRAPHIC] [TIFF OMITTED] T7413.030

[GRAPHIC] [TIFF OMITTED] T7413.031

[GRAPHIC] [TIFF OMITTED] T7413.032

[GRAPHIC] [TIFF OMITTED] T7413.033

[GRAPHIC] [TIFF OMITTED] T7413.035

[GRAPHIC] [TIFF OMITTED] T7413.036

[GRAPHIC] [TIFF OMITTED] T7413.037

[GRAPHIC] [TIFF OMITTED] T7413.038

[GRAPHIC] [TIFF OMITTED] T7413.039

[GRAPHIC] [TIFF OMITTED] T7413.040

[GRAPHIC] [TIFF OMITTED] T7413.041

[GRAPHIC] [TIFF OMITTED] T7413.042

[GRAPHIC] [TIFF OMITTED] T7413.043

[GRAPHIC] [TIFF OMITTED] T7413.044

[GRAPHIC] [TIFF OMITTED] T7413.045

[GRAPHIC] [TIFF OMITTED] T7413.046

[GRAPHIC] [TIFF OMITTED] T7413.047

[GRAPHIC] [TIFF OMITTED] T7413.048

[GRAPHIC] [TIFF OMITTED] T7413.049

[GRAPHIC] [TIFF OMITTED] T7413.050

[GRAPHIC] [TIFF OMITTED] T7413.051

[GRAPHIC] [TIFF OMITTED] T7413.052

[GRAPHIC] [TIFF OMITTED] T7413.053

[GRAPHIC] [TIFF OMITTED] T7413.054

[GRAPHIC] [TIFF OMITTED] T7413.055


</pre></body></html>
